Siegel, Yee,

Brunner
_& Mehta

 

ATTORNEYS AT LAW
+ DAN SIEGEL

+ ALAN S, YEE

JANE BRUNNER

« Sonya Z. MEHTA

# EMILYROSE JOHNS

+ Micaw CLATTERBAUGH
OF COUNSEL

+ ANNE

BUTTERFIELD
WEILLS

April 13, 2020
Via E-filing

Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: Fresno County Superintendent of Schools v. Rizo
Case No. 19-1176

Dear Mr. Harris:

The petition for writ of certiorari in the above case was placed
on the Court's docket on March 27, 2020. Ms. Rizo's response is due
April 27, 2020. Pursuant to Supreme Court Rule 30.4, I am writing to
request an extension of 60 days to file the respondent's opposition to
the petition.

This request is based upon the importance and complexity of the
issues raised in the petition and the difficulties of completing the
necessary work to file the response under the conditions imposed
during the coronavirus pandemic. This is counsel's first request for an
extension and is not being made for purposes of delay.

Thank you for your consideration.

very tru rs,

DAN SIEGEL

ce: Shay Dvoretzky
Counsel of Record

 

City Center + 475 141x Street, Surte 500, Oaxtanp, CA 94612 + PHONE: 510.839.1200 + Fax: 510.444.6698

www.siegelyee.com

0
